<html>
<title> - THE FUTURE OF U.S. - HUNGARY RELATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                  THE FUTURE OF U.S. - HUNGARY RELATIONS

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2015

                               __________

                           Serial No. 114-45

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 

                          U.S. GOVERNMENT PUBLISHING OFFICE
94-687PDF                     WASHINGTON : 2015                          

______________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a0d1a052a091f191e020f061a4409050744">[email&#160;protected]</a>  
                               
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota<greek-l>Until 
    5/18/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Hoyt Brian Yee, Deputy Assistant Secretary, Bureau of 
  European and Eurasian Affairs, U.S. Department of State........     8
The Honorable Kurt Volker, executive director, The McCain 
  Institute for International Leadership, Arizona State 
  University.....................................................    27
Mr. Tad Stahnke, vice president, Research & Analysis, Human 
  Rights First...................................................    29
Andras Simonyi, Ph.D., managing director of the Center for 
  Transatlantic Relations, School of Advanced International 
  Studies, Johns Hopkins University (former Hungarian Ambassador 
  to the United States)..........................................    57

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Hoyt Brian Yee: Prepared statement...........................    11
Mr. Tad Stahnke: Prepared statement..............................    33
Andras Simonyi, Ph.D.: Prepared statement........................    60

                                APPENDIX

Hearing notice...................................................    76
Hearing minutes..................................................    79


                  THE FUTURE OF U.S.-HUNGARY RELATIONS

                              ----------                              


                         TUESDAY, MAY 19, 2015

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:18 p.m., in 
room 2200, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call to order the Europe, Eurasia, and 
Emerging Threats Subcommittee for this afternoon's hearing on 
the Future of U.S.-Hungarian Relations. And after our ranking 
member and I each take 5 minutes for opening remarks, each 
member will have an opportunity for a short opening statement. 
And what we have now, I will wait to proceed. Well, maybe I 
should go ahead with my full opening statement now, and then 
when Mr. Meeks gets here, hopefully he will be getting here 
momentarily, he will be able give his opening statement. We 
will then proceed with a briefing by the Ambassador, and then 
the hearing will commence after that.
    So everyone will be given a chance for an opening 
statement, but especially Mr. Smith has asked for permission 
today, and without objection, to be able to join our meeting 
and our hearing today and give an opening statement as well. So 
with that said, we will then proceed with our, okay, first 
panels and questions in for moment after we have this briefing 
from our Ambassador.
    As we begin our--as we begin our conversation about Hungary 
today, let me underscore that Hungary is a NATO ally and a 
democratic country. The people of Hungary and the United States 
share a mutual respect for one another, and have a friendship 
built on shared values and democratic principles. My motivation 
for calling this hearing is not to bash any particular entity 
or take sides in Hungary's internal politics. I personally came 
up with the idea for this hearing. Those who suggest otherwise 
just don't know what they are talking about.
    It is certainly not being done to support or oppose the 
current Hungarian government. We have taken every measure to 
ensure a diversity of perspectives and make sure that they are 
heard today. The relationship between Hungary and the United 
States is vital to both nations. Hungary's key geographic 
location in the heart of Europe makes it a critical crossroads 
between Eurasia and Europe and between the Baltics and the 
Balkans.
    This hearing is part of the subcommittee's work to ensure 
that the bonds between America and our key allies remains 
strong and durable. Both of our nations have fought for our 
freedom, and we each work to perfect our democracies. We should 
be able to speak frankly and honestly in the spirit of mutual 
benefit. Since Minister Orban returned to power in 2010, 
Hungary has adopted a new Constitution and seen major changes 
in its electoral system. Those and other actions have led some 
to believe that Hungary is out of step with European values and 
damaging the checks and balances of Hungarian democracy.
    Such accusations cannot help but cause concern, but I 
remain mindful of the political motivations and hidden agendas 
that may lie behind such charges and behind those who are 
making those charges. Last October, the tensions, which had 
grown between the government in Budapest and our own, reached a 
crescendo when six current former Hungarian officials--current 
and former officials were made ineligible for U.S. visas, 
ostensibly because of corrupt activity. The media storm which 
followed was not in the interest of either side.
    I had the opportunity to visit Hungary last September, and 
I was impressed with much of what I saw. I was happy to hear 
the report from Hungary's Ambassador to the United States. I 
hope she can work well with our newly-appointed Ambassador in 
Budapest to make sure that we have progress in the future.
    As we hear from our witnesses today about the bilateral 
relationship, where it stands and where it is going, I will be 
listening for any recommendations about how the United States 
can reach out to a better mutual understanding and determine 
how the United States Congress can play a productive role. 
During this hearing, undoubtedly, there will be some 
constructive criticism of the current Hungarian Government. I 
view this type of openness as a sign of a mature relationship 
that we have with Hungary.
    Ironically, two witnesses with more positive views toward 
the current Hungarian administration withdrew from their 
commitment to me to testify. This reflected the sandbox turf 
mindset, read that stupid politics, that undermine--and I saw 
this same thing when I worked in the Reagan administration, it 
undermined the anti-Communist effort to get together and get 
the job done during the whole cold war, and I was very 
disappointed to see that same type of nonsense going on now 
when two people could have been up here giving their best to 
help us understand what is going on. And they are not here now, 
so their point of view isn't going to get as well represented.
    But whether the criticism or praise, the people, the 
government, and the elected leaders of Hungary deserve our 
respect and our evaluation, an honest evaluation. So regardless 
of what is said here, the kinship between the citizens of 
Hungary as manifested in their government, which they elected, 
and the people of the United States is of great value to us all 
and of great value to western civilization. The United States 
and Hungary are allies and friends, and that will not change.
    And with that said, I am sorry that Mr. Meeks is not here 
at this moment, but Mr. Sires, you have a----
    Mr. Sires. I just have a short opening statement, if you 
don't mind.
    Mr. Rohrabacher. Short opening statement.
    Mr. Sires. Thank you, Mr. Chairman, for holding today's 
hearing. Since the fall of communism, Hungary has proven to be 
a key U.S. ally in eastern Europe. As Hungary broke free of the 
Soviet grip, Hungary has contributed hundreds of troops to 
western peacekeeping mission, particularly in Afghanistan.
    Most recently, Hungary's Parliament overwhelmingly 
authorized the use of Hungarian troops to support the fight 
against ISIS in the Middle East. Unfortunately, like many of 
other countries in the region, Hungary has found it difficult 
to find other energy sources to diversify their supply beyond 
Russia. Until Hungary and the rest of the eastern Europe gain 
energy independence from Russia, the Kremlin will continue to 
have an influence in the region. It is imperative that we 
continue to engage with Hungary to ensure that democracy, human 
rights are protected, as well as encourage Hungary to continue 
engagement with the West.
    I look forward to hearing from our esteemed panel, the one 
panel member, and how the U.S. can bolster their relationship 
with Hungary. Thank you.
    Mr. Rohrabacher. We will have a few more opening 
statements, and then the Ambassador will give us a briefing, 
and which will be a 5-minute briefing, and then the hearing 
will commence.
    Mr. Meeks, with your permission, we have had a unanimous 
consent before you arrived, we have given Mr. Smith the right 
to have a short opening statement.
    Mr. Meeks. Absolutely.
    Mr. Rohrabacher. And then you will proceed with your 
opening statement. Mr. Smith from New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. Let me just 
note that I will be--come back to the hearing. I am actually 
part of a investment in nutrition seminar with Melinda Gates. I 
have a prime--or a bill on global nutrition that has passed out 
of the Foreign Affairs Committee and will be focusing on the 
first 1,000 days of life from conception to the second birthday 
as a transformative time, so I regret that I will have to 
leave, but I will try to get back as quickly as possible.
    Mr. Chairman, in written testimony of Deputy Assistant 
Secretary Hoyt Yee submitted for this hearing, the Obama 
administration has returned to its previous pattern of 
criticizing the domestic policy of the Hungarian Prime Minister 
Viktor Orban, which has proven to be both counterproductive and 
hypocritical in the past. Many of us had hoped that the Obama 
administration policy had changed. We were concerned that his 
prolonged and sometimes extremely outspoken public campaign 
against the Orban government had permanently alienated many 
Hungarians from the United States.
    In February, the administration seemed to take a new tact. 
This started after the recall of Andre Goodfriend, our deputy 
chief of mission, whose politically charged behavior gave him 
the reputation of the leader of the opposition in Hungary. And 
I would ask the distinguished Deputy Assistant Secretary why 
was he recalled?
    Since the arrival of our new Ambassador in Budapest, 
Colleen Bell, it was reported that the atmosphere was 
improving. DAS Yee will testify that Hungary has proved to be a 
reliable partner in helping to address challenges such--in 
places such as Afghanistan, Iraq, and the Balkans, and then 
Hungary supported sanctions the EU imposed on Russia over its 
sanctions in Ukraine, their actions in Ukraine, and has 
provided assistance to the Ukrainian Government, and that our 
security cooperation with Hungary has been, in his words, 
excellent.
    Yet with the testimony of Mr. Yee, it seems that the 
administration has gone back on the offensive. Many of Mr. 
Yee's criticism, for example, about centralizing executive 
authority, weakening checks and balances, deepening the 
investment climate, making changes that advantage entities that 
support the governing party and using a super majority to make 
sweeping changes would more accurately describe the Obama 
administration.
    Again, when the Obama administration had the super 
majority, that is when ObamaCare was passed. You have the 
votes. Do it. When you didn't have the votes, you couldn't get 
it done, but when you had the votes, you did it. And then it 
was also the IRS scandal, the Benghazi coverup, and a myriad of 
other executive orders that bypassed the Democratic process.
    As I said before, the administration needs to be a lot more 
humble in its dealings with Hungary and the Orban Government. 
Otherwise, it creates the impression of hypocrisy and fosters 
an environment in which anti-Westernism thrives. Right now, 
that is represented in Hungary by Jobbik, a disgusting anti-
Semitic and pro-Iranian party. This should be the 
administration's chief concern.
    As chairman of both the Human Rights Subcommittee and as 
chairman of the Helsinki Commission, I repeatedly met with 
foreign leaders and diplomats who privately expressed amazement 
and bewilderment at the administration's obsession with 
attacking the Orban government, or shake their heads in 
disbelief or irony or worse. They are reacting to what they 
perceive to be a disproportionate double-standard, 
misrepresentations, and inaccurate information in that 
campaign.
    Once again, the conversation between two countries must be 
a conversation between friends and equals. So I urge the 
administration to conduct that accordingly. This is a 
conversation between equals. There is a lot we can learn from 
the Orban government, for example, the constitutional cap on 
public debt as our careens out of control.
    Finally, I have dedicated my life to ending human 
trafficking. Anti-human trafficking bills are often difficult 
to pass. Ted Poe just had an important bill passed yesterday, 
and it took a long time to do so. When I first introduced the 
Trafficking Victims Protection Act in 1998, the legislation was 
met with a wall of skepticism and outright opposition. My 
bill's key provisions were opposed by the Clinton 
administration. Howard Coble testified right here at my 
committee against almost every provision in the bill, including 
the establishment of the trafficking in persons office; namely, 
sanctioning countries that failed to meet minimum standards 
prescribed in the bill, and even the comprehensive TIP report 
itself.
    People both inside of government and out, sought the bold 
new legislation that included sheltering, asylum, and 
significant protections for the victims, long jail sentences 
and active confiscations for the traffickers and tough 
sanctions for the governments that failed to meet those minimum 
standards was merely a solution in search of a problem.
    So as prime actor of that landmark Trafficking Victims 
Protection Act, as well as reauthorizations in 2003, 2005, I am 
encouraged by the important anti-trafficking efforts and 
leadership by the Orban government. As a matter of fact, most 
recent U.S. Department of State TIP report, June 2014, the new 
one will be out soon, while you urging increased efforts noted 
that--on prosecution, ``The government of Hungary sustained 
anti-trafficking enforcement efforts.''
    A new criminal code with anit-trafficking provisions came 
into effect in July 2013. On protection, the government of 
Hungary increased efforts to protect trafficking victims, and, 
of course, more can be done, should be done, but they have made 
progress. And on prevention, the government of Hungary 
sustained prevention efforts by utilizing multiple platforms to 
prevent human trafficking. Inexplicably, DAS Hoyt Yee makes no 
mention of this. I thank the chair and yield back.
    Mr. Rohrabacher. Might I add that Mr. Smith is a man who is 
always a voice of courage and morality when people belittle 
some of the issues that you talk about. They are of utmost 
importance, and you are a person I dearly respect for the 
energy and time you put in on things like this, so thank you 
for sharing your thoughts with us today.
    Mr. Meeks, who I also admire deeply and am very grateful 
that he is part of our subcommittee and our ranking member, Mr. 
Meeks, do you have an opening statement?
    Mr. Meeks. Thank you, Chairman Rohrabacher, for holding 
this hearing to provide us with a status update on America's 
relationship with Hungary. With the West's attention 
justifiably being focus on the Ukraine and our larger strategy, 
vis-a-vis, Russia, we must not overlook the importance of NATO 
allies that have different concerns than we do and 
simultaneously, have changing domestic political landscapes.
    In recent years, I have traveled to Hungary and I met with 
leaders, many who are still in the party in power of Fidesz. 
But times are changing, and to Fidesz's right, we see an 
increasingly popular Jobbik party, a party that overly uses 
anti-Semitic and anti-Roma speech. As Jobbik rises in the 
polls, Fidesz must address the far right and not appease it in 
my mind. The Hungarian government and its people should 
understand that we support our common democratic values that 
are also reflected in the NATO alliance. This is essential.
    When I think of Hungary, I think of 1956 and the uprising 
against Soviet policies during which over 2,500 brave 
Hungarians lost their lives. I think of Goulash communism and 
the quiet reforms that Hungarians pushed through until the 
ultimate fall of communism. I think of NATO allies who sent 150 
troops to join the fight against ISIS. Hungary paid a high 
price for its freedom from fascism and communism and ultimately 
for its ability to live in a democracy. Yes, in a democracy. 
Even in older ones, including our own, freedoms are not always 
given, and it is up to the political leaders and the media and 
the civil society to advance these liberal ideas.
    Today, we are looking at U.S.-Hungarian relations, and I am 
interested in discussing Hungary's role as a reliable NATO 
partner and member of the EU. Now, there are things that gives 
one concern, of course, when you hear the prime minister 
praising illiberal democracies, and we have got to figure out 
how we work collectively with Russia and also with China, and 
China and energy deals that puts Moscow's economic sphere. How 
can we make sure that we are working together with Hungary so 
that we can also make sure that we have Hungary's cooperation 
and their ours?
    This is especially important as European and our 
Transatlantic unity is being tested by Russia, and I understand 
our different geographies and histories and economic realities, 
but it is imperative that we maintain unity when we are talking 
about someone taking over sovereign property as Russia has done 
in the Ukraine.
    Also, in today's hearing, we will hear about human rights 
and democracy issues that are of concern. I particularly am 
concerned about the treatment of the role of minority either in 
the justice system or as a forgotten minority is extremely 
troubling. A healthy democracy includes and protects all of its 
citizens. New media laws, along with new Constitution, are, in 
my opinion, some of it is questionable, if not in their spirit, 
then definitely in their implementation.
    This comes, as I mentioned before, with the rise of the 
ultra right in the backdrop. The Hungarian Government, along 
with its European partners, have to work together to obviate 
this threat. Just today, the European Parliament held a plenary 
debate with Prime Minister Orban on the situation in Hungary. 
Now, this is not, and I am clearly--want to be clear on this, 
this is not an attack on Hungary. For surely I would want 
individuals to also talk about the situation, for example, 
currently that we are having here in America with African 
Americans throughout. So this is not something that is isolated 
in Hungary.
    I am just going to speak out just as I speak out about 
situations here in the United States. I am going to speak out 
about issues that I think that are taking place in others, and 
this is what I think friends should do with friends. We have 
got to be honest with one another and talk to one another to 
try to resolve issues that we may have, and this is what a 
democracy should allow us to do so that we don't have to, you 
know, hold back words. This is what maturity is all about, that 
we discuss these matters.
    And so I would love to discuss--like I said, I think that 
there is some problems here in the United States with 
minorities, and them being taken care of properly, and I also 
think, from what I have seem with Roma and others, minorities 
in Hungary, I think this is dialogue that good friends should 
have honestly if we are going to move forward.
    So I hope to hear from our experts about your opinions on 
Hungary's progress and its difficulties. Transatlantic unity, 
whether it is on trade, whether it is on Russian sanctions or 
protecting the common values that we fight for everyday, is 
something we must work hard at deepening. I look forward to the 
fruitful discussions that we can explore what Congress can 
offer, and to do to help guarantee both economic growth, a 
healthy democracy, and peace for all in the region.
    You know, right now in Washington we are looking at trade 
deal with--in Asia with TPP, but there is no real pivot just to 
Asia. We got to make sure that we focus on our old friends in 
Europe and right across the Atlantic and come closer together, 
and we can only do that with honest dialogue between the two of 
us. And I yield back, Mr. Chairman.
    Mr. Rohrabacher. Thank you very much, Mr. Meeks.
    And now we have the chairman of another subcommittee who 
just was courteous enough to allow me to have my statement and 
my time period today. Judge Poe, you may proceed with any 
opening statement that you have got.
    Mr. Poe. I want to thank the chairman for having this 
hearing. As already been said, I think the United States and 
Hungary have a unique relationship for a lot of reasons. It 
concerns me that we seem to be meddling in domestic affairs of 
one of our close partners. Surely the United States needs to 
have a dialogue regarding international foreign relations. I am 
not so sure the United States would likely take kindly if other 
countries decided to meddle in our policy and tell us how we 
should change our policy, and we will discuss that with the 
witnesses.
    The new Constitution is not like the United States 
Constitution, but it is a Constitution, and Hungary is 
operating under that Constitution. It seems to concern a lot of 
people, this is just my opinion, that Hungary's major party is 
center right, and the second strongest party is far right, 
being a center right government or population. That is the 
choice of the Hungarian people. That is not the choice of the 
United States, nor should it be the choice of the United States 
what type of government, either left of center, far left, 
right, right of center should be made. I frankly don't believe 
that that is any of the United States' business. That is 
meddling in a domestic relationship situation that we--or 
domestic situation that concerns me as an American where we 
take the--maybe the approach that we know better than the 
people of Hungary.
    I don't know that we do in certain domestic issues which we 
will explore later with the witnesses. So I do want to thank 
the witnesses for being here and the chairman for holding this. 
I value the relationship that we have with the nation of 
Hungary, and we need to work together on a lot of issues. We 
should be careful in pushing the American agenda, whatever that 
is, on other countries, whether they are friends or not 
friends, and I will yield back.
    Mr. Rohrabacher. Thank you very much, Your Honor, Judge 
Poe, and now call as our first witness--actually no. I will now 
call to brief us 5 minutes for our hearing, the Ambassador from 
Hungary to the United States, Ambassador Szemerkenyi, and you 
may proceed for as long as you would like to talk, and then 
thank you.
    [Whereupon, the hearing proceeded to a briefing.]
    [Hearing resumes.]
    Mr. Rohrabacher. Thank you very much, Madam Ambassador, and 
that was the briefing portion of our hearing, and you could be 
excused now. We now have witnesses that we will proceed to the 
podium. Thank you, Madam Ambassador.
    Ambassador Szemerkenyi. Thank you very much.
    Mr. Rohrabacher. So if we could have our panel of 
witnesses. Please proceed. It is my pleasure to welcome back 
Deputy Secretary of State Hoyt Yee. He was appointed to his 
current post in the bureau of Europe, Eurasia, and in September 
of last year. He is a career foreign service officer and 
previously stationed in such places as Afghanistan, Greece, and 
most recently in--he was the DCM in Croatia. All right.
    And Andras Simonyi is the managing director of the Center 
for Transatlantic Relations at the School of Advanced 
International Studies at Johns Hopkins University. He is the 
former Hungarian Ambassador to the United States, serving in 
that capacity from 2002 to 2007.
    We have Kurt Volker, who is the executive director of the 
McCain Institute for International Leadership. He is a career 
member of the U.S. Senior Foreign Service. He has held a number 
of positions with the State Department, including at our 
Embassy in Budapest, speaks fluent Hungarian, and before 
leaving government service, he was U.S. Ambassador to NATO. And 
Tad--and I am going to have to pronounce his name. Stahnke.
    Mr. Stahnke. Like Eddie Stanky, sir
    Mr. Rohrabacher. Stahnke. Is vice president for research 
analysis at Human Rights First. Prior to that, he worked for 
the United States Commission on International Religious 
Freedom. He is an expert on international human rights law.
    I just introduced four people, but there is only three 
people here; is that right? And here he is. Mr. Yee, you have 
just been introduced. All right. I tell you what we are going 
to do. I would like to have the other witnesses, let Mr. Yee 
just testify, and then we will have the final team of witnesses 
come forward, and that gives Mr. Yee a little bit more time to 
get questions from everybody. So here we go.
    Mr. Rohrabacher. Mr. Yee, I have already introduced you, 
and I had--was singing your praises. Yeah, that will be the 
day. So with that said, Mr. Yee, you go right ahead.
    Mr. Yee. Thank you.
    Mr. Rohrabacher. You got to punch that button.

 STATEMENT OF MR. HOYT BRIAN YEE, DEPUTY ASSISTANT SECRETARY, 
  BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Yee. Thank you, Mr. Chairman, Chairman Rohrabacher, 
Ranking Member Meeks, members of the subcommittee. Thank you 
for inviting me to appear before you today to discuss 
Hungarian-U.S. relations.
    Hungary is a valued ally, partner, and friend of the United 
States. The strong bonds between our nations are rooted in our 
shared commitment to democratic values. Hungary has been a 
reliable partner on such issues as Afghanistan, the Balkans, 
and Ukraine. Hungary supported Europe Union sanctions on Russia 
and has provided gas by reverse flow to Ukraine.
    Our security cooperation has been excellent. Our economic 
and people-to-people ties are strong, and the friendship 
between the American and Hungarian peoples is enduring. 
Recognizing the many areas where cooperation is strong, even 
the best of friends have differences, and when we do, we can 
and should speak openly about them.
    As a member of NATO, the European Union, and the 
organization for security and cooperation in Europe, Hungary is 
committed to upholding democratic values. Over the past 5 
years, as we have witnessed the Hungarian government take such 
steps as weakening checks and balances and undermining 
institutional independence, we have spoken out in private and 
in public. We have seen, including recently in eastern Europe, 
the disastrous consequences of failing to uphold the principles 
and values that underpin democracy.
    As Assistant Secretary Victoria Nuland has said, we can 
only be strong when we protect political pluralism, civil 
society, and the right to dissent within our own borders when 
our governments are clean, transparent, and accountable to the 
people they serve.
    Since 2011, we have made clear to the Hungarian Government 
our concerns about how it has used its two-thirds majority in 
Parliament to push through a range of legislative and 
constitutional changes that have centralized executive power, 
diminished checks and balances, and restricted freedom of the 
media.
    The 2014 parliamentary elections illustrated how the 
government changed the rules to its advantage. The OSCE's 
Office for Democratic Institutions and Human Rights reported 
that the main governing party enjoyed an undue advantage 
because of restrictive campaign regulations, biased media 
coverage, and campaign activities that blurred the separation 
between political party and the state.
    Also, in 2014, the government undertook a campaign against 
nongovernmental organizations that have served as independent 
voices and have received funds from Norway. The NGOs are still 
waiting for their names to be cleared. Their confiscated 
equipment to be returned, and their tax identification numbers 
restored.
    I would also like to highlight the problem of corruption, 
which degrades institutions and saps the will to protect them. 
Instead of responding forcefully and transparently to 
allegations of corruption, the Hungarian government has allowed 
the problem to fester, has protected certain accused officials, 
and has punished the accusers. Perhaps most troubling, from the 
highest levels of power in Hungary, we have heard rhetoric 
about building an illiberal state on national foundations and 
praise for autocracies. Such comments do not do justice to the 
democratic values that Hungary has pledged to uphold.
    In 2014, the U.S. Government raised its concerns about 
Hungary's democracy at the OSCE and in the President's speech 
in which he cited Hungary's intimidation of civil society. In 
addition, we applied Presidential Proclamation 7750, suspending 
the right of certain Hungarian official suspected of corruption 
to enter the United States. Ambassador Bell, in country since 
January, has made clear that our concerns persist.
    The United States Government has not been alone expressing 
these concerns. As the European Union, counsel of Europe, and 
OSCE have also spoken up, as have independent organizations 
such as Transparency International and Amnesty International.
    And importantly, concerns about democracy in Hungary are 
shared by many Hungarians themselves. The United States has 
also expressed concerns about the rise of ethnic nationalism. 
The problem is, of course, not unique to Hungary, but 
increasingly prominent there. We hope to see greater efforts to 
strengthen the climate of tolerance more consistent with the 
Transatlantic values to which Hungary has subscribed.
    In recent months, we have seen some positive signs. For 
example, leading up to the vote on deploying troops for the 
anti-ISIL coalition, the coalition and governing party leaders 
consulted with other parties and relevant parliamentary 
committees. We look forward to additional steps and more 
substantial ones by the Government of Hungary to address the 
issues I have raised here today.
    I would like to reiterate, in conclusion, that Hungary 
remains a friend, partner, and ally that we have expressed our 
concerns--and that we have expressed our concerns in that 
spirit. It is important for Hungary to represent transatlantic 
values not only for its own future, but also for it to be a 
strong, reliable partner on global challenges for the United 
States and its other allies. Thank you.
    [The prepared statement of Mr. Yee follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
                              ----------                              

    Mr. Rohrabacher. Well, thank you very much for your 
testimony. We will proceed with questions for the Assistant 
Secretary, and I will start it off with, if you had to compare 
Hungary to, let's say, Bulgaria, Romania, all the neighboring, 
those neighboring countries, the criticisms that you just 
leveled, would you say that Hungary is worse than they are in 
these areas?
    Mr. Yee. Well, thank you for that question, Mr. Chairman. I 
think it would be difficult to generalize across the board 
whether Hungary is worse in all the categories. I think in some 
ways----
    Mr. Rohrabacher. Let's be specific then. Is there any 
gerrymandering going on in Bulgaria and Romania?
    Mr. Yee. I am not aware of a gerrymandering process ongoing 
now, sir.
    Mr. Rohrabacher. I guess we have to look closer to home to 
find gerrymandering, don't we? Not very far. I seem to remember 
that happened in our first election as a free country.
    The--is there bias in the news media in those countries 
against candidates that may be running for office? You know, 
you have the out party, does--is there a bias against them in 
Bulgaria and Romania against those candidates?
    Mr. Yee. I believe it is possible to find bias in the media 
against political candidates, party leaders in any country.
    Mr. Rohrabacher. Right. So there is bias in the media. My 
gosh----
    Mr. Yee. I would include----
    Mr. Rohrabacher. There is no bias in media here, of course. 
All right.
    What about the NGOs? The NGOs that were put out of business 
that you mention, were these NGOs made up of people from 
Hungary, or we talking about foreign NGOs involved in their 
system?
    Mr. Yee. They were Hungarian----
    Mr. Rohrabacher. Hungarian.
    Mr. Yee [continuing]. Citizens.
    Mr. Rohrabacher. Okay. Well, because it is hard to tell. 
Sometimes what we have today are NGOs that end up being 
financed by outside interest groups in these countries, and we 
don't know whether they are local, and certainly everybody has 
a right to express their opinion and they should not be 
repressed. And the Ambassador suggested that the NGOs that were 
attacked were basically engaged in some sort of economic fraud. 
Was that--is there any truth to that?
    Mr. Yee. We understand there is an ongoing investigation, 
Mr. Chairman, but the impression that the United States 
Government has and the overwhelming consensus of the 
international community is that the manner in which the 
investigation or the police raid on these NGOs was conducted 
was far in proportion to what it should have been.
    Mr. Rohrabacher. Okay. So they just weren't open about 
their--the charges that they were charging them with or----
    Mr. Yee. There was a police raid on the headquarters of 
NGOs which equipment was seized. Tax identification numbers of 
the NGOs were confiscated.
    Mr. Rohrabacher. You know, I had a friend here. 
Unfortunately he is not here now. His name is Curt Weldon, and 
you know, his daughter's home was raided just 2 weeks before at 
the election by the FBI. Hmm, I wonder if these things happen 
in different countries, too. I mean, maybe even right here. So 
let's put it in perspective. That doesn't make it right. That 
does not make that right, but that may mean that what we are 
talking about here is not so much out of the ordinary that it 
deserves to be a cornerstone or a reason for specific policy 
decisions.
    And of course, did--you know, we do have a situation where 
Lois Lerner here in our own country was--did some 
investigations of their opponents, their political opponents, 
is that right? Did that happen here with our administration? I 
think it did. And, of course, here we have had a huge coverup 
of that, and over there, I guess they can have lots of 
criticism and the international community comes down on them.
    With that said, I think that people shouldn't raid NGOs. I 
don't think there should be gerrymandering. I certainly think--
don't think there should be corruption in these societies, but 
when we are dealing trying to decide what the foreign policy of 
the United States is going to be all about, where we are going 
to put our pressure, it better not be singling out a country 
that is so friendly to the United States as Hungary is, because 
if they are not doing something uniquely bad, we are singling 
out friends rather than trying to seek truth and make things 
better.
    With that, I will yield to my friend, Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman, and it is always good 
following you.
    Mr. Rohrabacher. You got my back.
    Mr. Meeks. Actually, some of the things, you know--I think, 
as I said in my opening, and you missed that, Mr. Yee, 
unfortunately. I think that when you have friends, you can be 
honest with friends, and you can talk back and forth. I think 
there is room for criticisms in various democracies. Surely in 
ours, there is room for criticisms.
    As I stated in mine that when I look at the scenario that 
is going on in this country now as reflected with African 
Americans, and what is taking place across with the shooting of 
young African American men, and the criminal justice system, 
that is questions that I will take, and just as I will ask 
questions about the treatment of minorities in Hungary and 
other places, I think that is where we need to talk so that we 
can work collectively together so that we can try to figure out 
how this system works better.
    I also think that it is important that we try to work as a 
group in unison, and I know that with our NATO allies, we have 
got concerns that we have got to work there collectively 
together. So in the spirit--and I should have said earlier, 
because anytime I am here, and I can think of my recent visit 
to Hungary, one of the individuals that come to mind who was 
born in Hungary but was a great American who dedicated his life 
to being a champion of human rights was the former chair of 
this--of the Foreign Affairs Committee, Tom Lantos, and so I 
can't help but raise his name and his life's legacy to the 
great relationship that we now have with Hungary.
    But Tom, when I hear of Tom, and as I visited Budapest and 
looked at, you know, what has been and what is the relationship 
today, we have a great--a great relationship of which can only 
get better if we are honest with one another and we talk back 
and forth.
    With that, you know, where my questions will go around, 
because I am really concerned about Russia and what has taken 
place in the Ukraine, and the taking of territory, and I know, 
and I think Hungary voted for sanctions, although it expressed 
reservations about sanctions, so my question is--there is going 
to be a new vote soon to renew the sanctions this summer that 
is coming closely. Have you got any feelings or have any 
indication, I should say, as to what we can expect in regards 
to Hungary with the renewal of sanctions against Russia coming 
shortly?
    Mr. Yee. Thank you. Thank you very much, Mr. Meeks. I have 
heard from my Hungarian colleagues, including from the 
Ambassador here today, that Hungary intends to maintain 
consensus with other EU members and maintaining sanctions, and 
have not heard any indications that that is in--is going to 
change anytime soon.
    We do, as you mentioned, sir, we have heard some 
reservations expressed by political leaders in Hungary about 
the consequences, economic consequences of the sanctions upon 
those countries which are enforcing them. And it is certainly a 
fact that the sanctions have an impact on countries in the 
European Union, on the United States of America, in applying 
these sanctions, but so far, we still have a consensus that it 
is essential to make sure that Russia continues to pay a cost 
for what it is doing in Ukraine.
    Mr. Meeks. So--and there is no question in my mind that 
Russia--excuse me, Hungary is a very important member of NATO, 
and the EU, and I want to make sure that we are maximizing our 
relationship because of energy concerns and because one1 of the 
things that we are hearing, that--and this is not just true of 
Hungary, this is true of some other countries, you know, when I 
hear of America's involvement in NATO, especially with 
reference to defense budgets and the amount of money that needs 
to be put up in NATO for all countries, I wouldn't--are we 
leveraging or encouraging Hungary and other countries like it 
that are not putting up its fair share into defense spending 
for NATO so that I don't have to go back to my constituents and 
saying it is just the United States that is putting up all the 
dollars into NATO?
    Mr. Yee. Thank you. Thank you, Ranking Member Meeks. We 
agree completely, of course, that it is essential that NATO 
remain strong, and I think that is one of the central messages 
that I wanted to make today is that we are concerned about and 
eager to help Hungary because it is a NATO member, and as 
Hungary relies on us and other allies, we rely on Hungary to be 
a strong member of NATO, and that is why institutions are 
important, democratic institutions which are the backbone of 
the strength of any democracy
    As far as ensuring that our allies do meet their 
obligations to NATO, whether it is financial or in terms of 
military capabilities, that is an important part of our 
dialogue with all of our NATO countries. Hungary is one of the 
NATO allies that is not meeting the goal of spending 2 percent 
of its GDP on defense. Like other NATOs at the Wales Summit 
last year, Hungary committed to increase its spending toward 
the 2 percent target, and we are also encouraging Hungary to 
spend more on modernization of its military. So this continues 
to be one of the important points we raise with Hungary and 
will remain so.
    Mr. Meeks. My last question is this. And it is a concern 
that I just have in a number of different countries, but I just 
like to get your viewpoints. I always get extreme--whether it 
is in the United States or anyone else about extremes. Extreme 
left, extreme right, either way, I am concerned about extremes. 
And it seems to me, and you can correct me, I am just really 
just trying to figure this out, that there is a rise in 
popularity of extreme right in Hungary that have basically an 
anti-immigrant and an anti-Semitic, and you can correct the 
language that I have been hearing coming out of there, it seems 
to me to be alarming.
    So is that--am I right, is the administration concerned 
about the growth of the extreme right in Hungary? Am I 
incorrect? Is that, from your viewpoint, not happening? Would 
you give me your opinion in that regard?
    Mr. Yee. Thank you, Representative Meeks. We do share your 
concern about the apparent rise of the extreme right, not only 
in Hungary, in other countries in Europe. But we do, as I 
mention in my statement, notice that there is a--an ascendence 
of the far right. According to latest polls, the far right 
party, Jobbik, may be reaching, if it hasn't already reached, 
the number two position among parties in popularity in Hungary, 
which is alarming, considering it is a not only anti-
immigration, it is anti-Semitic, anti-foreigner party at least 
in the views and policies it espouses.
    So while we certainly believe that--in free speech, in the 
right of all parties to be represented, and the people of the 
citizens of Hungary to choose whom they want to represent them, 
we do believe it is important to watch trends, especially 
alarming trends in either anti-Semitism or xenophobia or anti-
immigration in a way that is at odds with democratic traditions 
and democratic values that--on which the European Union and 
NATO are based.
    But we do think that as long as there is a government in 
Budapest that respects basic democratic principles of 
plurality, of democracy, of rule of law, that the space for 
such extremists for right wing extremists or any extremists 
will be narrowed.
    Mr. Meeks. Thank you
    Mr. Rohrabacher. And now Colonel Cook.
    Mr. Cook. Thank you, Mr. Secretary. I want to go back to 
some of the comments about NATO, and I am a little concerned 
about this because obviously, it is a very, very fragile 
organization, and you talked about, you know, where we start 
singling out particular countries. We could, you know, make 
criticisms about the Erdogan regime, if you will, the swing to 
the far right, the Muslim Brotherhood situation may be changing 
in Spain with the--their new government, and I won't even go 
into Greece. So I think you always got to be careful when you 
hold this organization together.
    And you talk like Hungary is--didn't make their 
obligations. But who has met that 2 percent obligation? What, 
three countries, if I remember correct, out of 28. Do the math. 
It is not very good. And I am very, very worried that this--an 
ally such as Hungary, if a scenario develops, and we have 
talked about this in House Armed Services Committee where you 
had a situation where Putin and Russia decides to pick off the 
weak link in their minds, and that might be Estonia or 
Lithuania or Latvia, because of its geography and proximity to 
the old Soviet bloc, and the question is: Will certain 
countries not support NATO? And in your opinion, would Hungary 
be there for us in such a scenario, which has been discussed by 
many of our military leaders?
    Mr. Yee. Thank you, Representative Cook. I would like to 
put into context----
    Mr. Rohrabacher. Could you push the button.
    Mr. Yee. Apologies. Thank you, Representative Cook. Just to 
put in context briefly. The concerns that I expressed about 
Hungary would apply to many other countries. We are not simply 
isolating Hungary.
    Mr. Cook. I agree, but right now we are focusing on that, 
and a part of me wants to say, well, wait a minute, they 
committed troops to Afghanistan as opposed to other members. My 
fear is that if you have one member that does not support this 
action, then NATO is going to fall apart. So that is why 
specifically, what we can talk about all the other 27 
countries, and whether they would do it or not, and I am trying 
to figure out, perhaps I am worried about the weak link and 
they are a lot closer to the geography than we are and some of 
the other countries.
    Mr. Yee. I would agree, Representative Cook. The alliance 
is only as strong as its weakest link.
    Mr. Cook. That is right.
    Mr. Yee. And what we are trying to talk about today, the 
point I am trying to get across today is that we need to look 
beyond the immediate and into the future about where the 
alliance will be if we do not address some of weaknesses. So I 
would say the alliance is strong today and will be for the 
foreseeable future if we don't see new problems, new challenges 
to alliance, strength.
    Mr. Cook. And I understand that. I am trying to put you on 
the spot, if it is not obvious, and I just want your opinion 
based upon your experience, whether you thought Hungary would 
support the alliance. I think they will, but from your 
testimony here today, I get the feeling that you think they 
won't. I just want you to--it is your opinion. You know, it 
is--of course you are also the assistant secretary. I guess it 
might make a little difference.
    Mr. Yee. Well, sir, the answer to the question is yes, 
Hungary has been a strong NATO ally. I am sure it will remain 
one.
    The question I am raising today is how do we ensure that 
Hungary and our other allies continue to be strong not only in 
terms of their military capabilities and the financing they are 
providing to support NATO, but within internally strong, their 
democratic institutions, the values and principles on which the 
alliance and the commitments that we make to our allies is 
based.
    Mr. Cook. Thank you. I yield back.
    Mr. Rohrabacher. Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, it has been difficult for nations in eastern 
Europe, like Hungary to completely turn away from Russia when 
the majority of their energy comes from Russia. And we don't 
seem--Europe or us, we don't seem to be working very hard 
trying to provide an alternative to Russia. And I am just 
concerned that bashing Hungary or keep talking about Hungary, 
when we become very selective in the countries that we talk 
about with corruption and undemocratic ways, it is just going 
to drive Hungary more toward Russia.
    And do you have any concern about that? And I know, look, 
we are friends and we should talk. We should be able to sit 
down and talk about differences and everything else, but I 
think that is B.S. You know, this is hard-core politics here. I 
mean, they got Russia right next door, you know, putting a lot 
of pressure on this country. We, quite frankly, keep losing 
friends, and I am concerned that if we go down this road, we 
are not going to be able to count on Hungary.
    Can you talk a little bit about that?
    Mr. Yee. Thank you, Representative Sires.
    I would answer that it is precisely for that very reason, 
our shared concern about Russia's maligned influence in Eastern 
and Central Europe that we need to have these kinds of candid 
conversations with our allies about how to be strong together, 
individually, in facing the threat that Russia poses. So that 
includes, for example, on energy where Hungary is--I think 
Hungary would admit is overly dependent on Russia for its 
energy. Over half of its gas, 80 percent of its oil, it depends 
on Russia----
    Mr. Sires. Well, we have known that for a long time, and we 
don't seem to make the effort to wean them away from this 
dependency, either by us or by Europe.
    Mr. Yee. Sir, I would respectfully say that we are trying 
very hard to help Hungary, specifically in the area of energy 
security.
    My colleagues from the Department of State who work in the 
Energy Bureau, Special Envoy Hochstein has devoted a lot of 
time working with the Ambassador in a previous capacity and in 
her current capacity in trying to find ways to help Hungary 
diversify its energy and to increase its energy security by 
finding alternative routes, supplies, a better mix of energy 
types, and to cooperate with other countries in the region who 
have similar problems, and to better interconnections, new 
routes, can lessen their dependence on Russia.
    I would agree--I fully agree that we have not so far been 
successful, as successful as we need to be, but we are working 
very hard to find solutions to that energy dependence.
    We are also working very hard together, as we discussed 
earlier, in maintaining a common front against what Russia is 
doing in Ukraine, pursuing its aggression in Ukraine. By 
standing together Hungary, United States, other allies, EU 
members, we are exacting a high cost on Russia. We are having 
an impact on Russia's economy, and we believe this is the right 
course.
    So I guess the short answer would be, Representative Sires, 
that we believe we need to do both. We need to work together in 
these areas such as energy security and in pushing back against 
Russian aggression in Central and Eastern Europe. And we also 
need to have the hard conversations with each other about what 
we need to do to strengthen our base, make sure that internally 
we are also strong.
    Mr. Sires. But sometimes, you know, this conversation 
doesn't have to be so public like we do with other countries. 
You know, I don't see us bashing China as, you know, as we bash 
Hungary. And, you know, and other countries, quite frankly.
    Mr. Yee. Sir, what I would say to that is that we always 
begin, in any of our diplomatic discussions, with private 
conversations, private discussions, in Budapest or in 
Washington, and the importance, we believe, needs to be placed 
on results. If we get results with the quiet diplomacy, then we 
should proceed in that direction. If we don't get the desired 
results, we have to try something new.
    In this case, we felt it was important that we ensure the 
public, and Hungary also was aware of the U.S. concerns, that 
it was not the United States itself that took this discussion 
public. In some cases it was Hungary itself that made the 
discussion public about the corruption, for example, and the 
pursuit of the visa travel bans. The OICE European Union, those 
organizations also brought these concerns to public discussion. 
So I completely agree. It is better to do it behind closed 
doors, but sometimes we need to go to a different mode if it is 
not working in the first----
    Mr. Sires. I just think the European Unions have to step up 
a little bit more to assist some of these countries on the 
Eastern part because it just can't be on us. You know, it 
always falls on us and the taxpayers of this country. Thank 
you.
    Mr. Rohrbacher. Well, thank you very much. We have--Judge 
Poe just--just one question we were making sure that we aren't 
having a double--what we are hearing is we think we are having 
a double standard against somebody who is our friend, and that 
is sort of the spirit that is coming out of this questioning, 
and, you know, you push our friend away if you have a double 
standard to judging him.
    Let me ask you, have we pulled the--any official 
recognition or have we pulled the visas for any Bulgarian or 
Romanian officials for corruption?
    Mr. Yee. I can say, Mr. Chairman, I am not sure whether we 
have in those countries. We have in many other countries. The 
7750 authority applies to----
    Mr. Rohrbacher. I really want to focus--the reason I am 
focusing on Romania and Bulgaria is because they are right 
there. They are neighbors. And if they don't have the same--if 
they are not the same type of policy toward them as we have 
toward Hungary, it would seem like a double standard, not if 
say--let's say maybe countries like Tibet or some other places 
are different, but--or maybe England, but--so we need to know 
whether or not this is--whether or not this government is being 
picked upon because of ideological reasons by this 
administration or whether or not this administration is 
upholding a standard that we can be proud of. So that is what 
that is all about.
    Mr. Yee. So thank you, sir, for the question. The short 
answer is there is no double standard. We apply the same 
standard in all countries.
    Mr. Rohrbacher. Well, the question actually was whether you 
had done it in Bulgaria or Romania, and the short answer would 
be yes or no.
    Mr. Yee. Well, actually, sir, if I could just say that we 
do ban people from Bulgaria and Romania from traveling to the 
U.S. for reasons of corruption, but we don't use necessarily 
the same authorities in Hungary and other countries. I would 
have to get back to you on what authorities we use. But I can 
tell you for sure that there are people from both those 
countries who are not allowed to travel to the U.S. because of 
corruption.
    Mr. Rohrbacher. Yeah, sure. But top government officials is 
what we are asking about here because it is not just citizens--
--
    Mr. Yee. And I do mean--sir, just to clarify so I don't--
I'm not misunderstood. There are government officials or former 
government officials from Romania and Bulgaria who are not 
allowed to travel to the U.S. because of reasons of suspected 
corruption.
    Mr. Rohrbacher. Could you send us that list? That would be 
great. If you could make sure we have a list of those people.
    Mr. Yee. I can't send you a list, sir, but I can send you 
the numbers. I can send you the numbers.
    Mr. Rohrbacher. You can't send us the names?
    Mr. Yee. The information--well, I will have to check to see 
if I can. It is not publicly available. The names can't be 
released publicly, just as we didn't publicly release the names 
of the people in Hungary. So not to apply a double standard.
    Mr. Rohrbacher. Good. That is a great answer.
    Judge Poe. But now you are up against Judge Poe.
    Mr. Poe. Thank you for being here. You weren't here for my 
opening comments, and I--let me preface everything with this. I 
have been called a lot of things in my life, but I have never 
been called a diplomat. So I am not very diplomatic, and I 
would hope that you would just give me candid answers and not 
explain your answer unless I ask you to.
    The Russians and the Ukrainians--or, excuse me, the 
Hungarians are coming up upon a time table to get gas from 
Russia. Russia holds Hungary hostage like they do many other 
countries, 87 percent of their gas comes from Russia. This 
contracthas been coming up. They don't sign the contract. The 
Russians are going to double it unless there is an alternative.
    Has the United States done anything to sell American gas or 
to get it to Hungary either directly, indirectly, whether it is 
LNG, helping them develop their own energy so they have gas? I 
am not talking about green energy. I know it has been the 
policy of the U.S. telling Hungary you got to go to green 
energy. Set aside green energy. They need gas. This is 
contracts coming up, up the governmenthas got to make a 
decision. Have we said: Here is an alternative. You can buy 
some gas from Texas. They got more than they can use.
    Now, I am serious about this. Have we done anything to make 
sure they can get gas from America instead of Russia?
    Mr. Yee. Yes, sir.
    Mr. Poe. What? Are they going to be able to get gas from 
the United States when this contract comes up?
    Mr. Yee. We are doing two things, sir, to help Hungary and 
other countries in Europe get more gas.
    One, as you, sir, know better than I, we are authorizing 
the export of LNG, and that is a process that could begin, as I 
understand it, as early as 2015 exports.
    Mr. Poe. But that is too late. They have got a contract 
coming up now. If they don't sign the contract, the Russians 
are going to double the price of natural gas down the road, 
2015 is too late. It is not like we knew this was coming up 
last week. We knew the contract was coming up 15 years ago.
    So the answer is no, we have not done anything to give them 
an alternative immediately from Russian gas. Is that right?
    Mr. Yee. Sir, I would respectfully disagree. Just the fact 
that the U.S. is producing more gas now has lowered the price 
of gas worldwide. That has helped Hungary. That has helped all 
the countries of Europe that import gas.
    Mr. Poe. But Russia sets the price of gas that they are 
going to sell to Hungary.
    Mr. Yee. Yes, sir, but it is a lower price because they 
have to deal with the market prices worldwide. So we are doing 
something, sir.
    Mr. Poe. So you say that the United States has affected the 
price of natural gas and the Russians are not going to double 
the price if they don't sign this contract?
    Mr. Yee. Sir, I don't know what the Russians will do.
    Mr. Poe. Well, I think fair guess is that since it is a 
monopoly that Gazprom has on all of Europe, and the United 
States has been diddling on selling natural gas to other 
countries because of our regulatory process, they are going to 
be held hostage and they are going to have to buy Russian gas. 
Now, that is my opinion.
    Did the United States support or not support the new 
Constitution in Hungary?
    Mr. Yee. We have serious concerns with the Constitution.
    Mr. Poe. So did we support it or not support it when it 
became the law of the land?
    Mr. Yee. We expressed concerns when it became the law of 
the land.
    Mr. Poe. Why?
    Mr. Yee. For a number of reasons, sir.
    First, we believe that the Constitution and the amendments 
and the number of laws that were passed between 2010 and 2013 
centralized executive authority----
    Mr. Poe. Okay. Let me interrupt right there on that one 
question.
    Is it true that the socialist party did not participate in 
the debates on the new Constitution? Is that true?
    Mr. Yee. I don't know.
    Mr. Poe. Well, I think maybe you should check that out. 
They did not participate in the new Constitution. The 
Constitution and a new government has been elected under the 
news Constitution. You mentioned that you are concerned, that 
we are concerned, about the government being right of center, 
far right.
    Would we be just as concerned if they were left of center 
or far left?
    Mr. Yee. Sir, I didn't say that I had concerns about the 
government being right or left. It was the extreme right 
parties who seem to be growing in popularity, anti-Semitic, 
anti-foreigner, anti-immigration parties that seem to be 
growing more popular. That is not my concern with the 
government.
    Mr. Poe. So you are not concerned with the government.
    Mr. Yee. My concern with the government is about its 
tendency to consolidate power, to not leave space for an 
opposition, to weaken the judiciary, to weaken freedom of the 
media, to weaken civil society.
    Mr. Poe. So we are trying to make a democracy in our image 
with one of our neighbors. Isn't that basically it? We want to 
import whatever our policy is about democracy. We don't want a 
centralize government over in Hungary, although we seem to have 
a pretty centralized government in the United States. We don't 
want one in Hungary. We want them to change their immigration 
policy, even though they have had a 20-fold increase of illegal 
immigration in just 2 years. So that is what the United States 
is really doing. We want a democracy in our image.
    Isn't this just meddling into their domestic relationship, 
and isn't that causing ill will for us arrogantly to go to 
another country and say: We don't like the way you are doing 
things domestically. We wouldn't like it if some other country 
came over here and said: We don't like the way your democracy 
is.
    For, after all, the Constitution, are you familiar with the 
first phrase in the Constitution? I have heard that this was 
objectionable to the United States. You know what the firsts 
phrase in the Constitution of Hungary is? Do you know?
    Mr. Yee. No.
    Mr. Poe. God bless the Hungarian people. I have heard that 
we have had problems with that in the United States because it 
mentions a deity.
    I am out of time.
    I will put all my other questions and then I will get 
answers in writing.
    Mr. Rohrbacher. Thank you very much, Your Honor, and 
unfortunately, Mr. Yee, you are going to have another Texan 
following another Texan here.
    Mr. Weber. Or fortunately, depending upon your point of 
view.
    Judge Poe, just slide your notes over here for me. Would 
you?
    Mr. Yee, when you were discussing with Congressman Meeks 
about the extremes, and the Congressman said he was concerned 
about extremes, it looks like he is extremely cautious, you 
responded to him by saying that you were concerned about the 
extreme right. But you didn't mention the extreme left. I just 
want to mention that for the record. You can go back and listen 
to your comments.
    You said that you were concerned about the anti-immigrant 
trend over there.
    Do you have examples? Can you quote going back 2 and 3 and 
4 years their immigration flow? Can you give us proof of that?
    Mr. Yee. I am sorry, sir, I don't understand the question. 
The numbers of immigrants.
    Mr. Weber. You were saying they are becoming anti-
immigration. Is that right?
    Mr. Yee. There is a rise in popularity of a far right 
extreme party named Jobbik which among other----
    Mr. Weber. Gotcha. Has that affected the flow of 
immigration into Hungary?
    Mr. Yee. I don't know. I don't know.
    Mr. Weber. So you don't really have any numbers to back 
that up in terms of how it is affecting immigration, you are 
just seeing a bunch of rhetoric out in the public.
    Mr. Yee. Sir, I didn't make any comment on immigration 
itself. My concern is about the presence of an extreme right 
party which is anti-Semitic, anti-foreigner----
    Mr. Weber. But not an extreme left party.
    Mr. Yee. If there were a problem with it, an--I am against 
extremism, sir, of any kind. Any extremist party.
    Mr. Weber. But you don't really have any facts to back that 
up on immigration itself.
    One of the other members had a good--compare it to its 
neighbors. It might have been the chairman.
    How do you compare Hungary's, let's just say, stance 
against Russia with Crimea, for example? How would you make 
that comparison?
    Mr. Yee. The comparison between Hungary's position on----
    Mr. Weber. Well, Crimea, Romania, Bulgaria. You really 
didn't answer that question. Well, we are going to say Crimea 
because there is a history there.
    So is Hungary in a position to be favorable toward Russia? 
And if so, would you say the natural gas played a role in that?
    Mr. Yee. Sir, I have to say I don't understand the 
question.
    Mr. Weber. Okay. I think the chairman asked you. You are 
not making a comparison. You are saying a lot of bad things 
about Hungary, and yet you have got other countries right 
there, Romania, Bulgaria, and I would even add Crimea, that you 
are not making any comparison to those neighboring countries. 
You are just singling out Hungary. Why?
    Mr. Yee. Well, sir, I would be happy to talk about the 
other countries because I also cover them. I came prepared to 
talk about Hungary. That was the topic I thought----
    Mr. Weber. Okay. Is Hungary more favorable to the United 
States than those other countries are?
    Mr. Yee. I don't believe it is possible to make that 
generalization, sir.
    Mr. Weber. Okay. All right. Well, let me move to my next 
question.
    You said they are working very hard on energy, and the 
judge over here had a good--and I have LNG plants in Texas.
    You said that importance is placed on results. Those are 
your words.
    Okay. How about the speed with which--by which those 
results are reached? Would it be better for Hungary to get 
natural gas from us sooner or later?
    Mr. Yee. Sooner.
    Mr. Weber. That is pretty easy. Isn't it?
    Okay. So on LNG permitting, and I have got a lot of it in 
my district on the Gulf Coast of Texas, have you been pushing 
the administration, the Department of Energy, FERC, to really 
get on top of this and make sure that we can get as much LNG?
    Now, you did mention the fact that there is a lot of it, 
but I would argue that it is in spite--gas is very, very 
plentiful, in spite of this administration, not because of. 
Okay. And have you really been pushing the administration to 
release that LNG and get those permits in gear high speed?
    Mr. Yee. Sir, I have not my answer----
    Mr. Weber. That seems to contradict your position here.
    Mr. Yee. My answer was in response to the question what is 
the United States doing to help Hungary. And these are the two 
areas where we are trying to help. But I would never say, sir, 
that we very exhausting all possibilities----
    Mr. Weber. Is that a product more of the private sector, or 
is that of the government sector, all the gas that we have now?
    Mr. Yee. I wouldn't dare to speak on behalf of the private 
sector, sir. I am talking about U.S. policy and what we are 
trying to do with our partners in Europe.
    Mr. Weber. Okay. But in your opinion, you are an American, 
do you think that that gas has been produced because of the 
administration or because of the private sector?
    Mr. Yee. Sir, it has got to be a combination.
    Mr. Weber. It has to be a combination, 50/50, 60/40, 70/30? 
Put a ratio on it.
    Mr. Yee. I am not competent to answer that.
    Mr. Weber. You are not competent to answer that. Okay. 
Well, you have an opinion and you know the answer. It is more 
about the private sector.
    Do you think that Putin is on the March?
    Mr. Yee. Sir, well, thank you for that question.
    We do believe that Russia is interested in expanding its 
influence in Eastern and Central Europe.
    Mr. Weber. Okay.
    Mr. Yee. And it important that we find ways to----
    Mr. Weber. Okay. Is Hungary enough of a friend and an ally 
that we need to help protect them?
    Mr. Yee. We have an obligation under a treaty to defend 
Hungary and our other allies.
    Mr. Weber. Okay. Will you leave here and go back to the 
administration and push for getting the gas permitted process 
as soon as possible?
    Mr. Yee. Sir, I will carry the message back and do my best.
    Mr. Weber. All right. Thank you. I appreciate that.
    I yield back.
    Mr. Rohrbacher. Thank you very much for joining us today, 
and it was a lively discussion, and we appreciate you putting 
yourself here with us and being really ready to answer these, 
and these were very tough questions for you, but thank you for 
being here, and don't think because we are asking tough 
questions that we don't admire you as a person and are grateful 
for the job you are doing for us, for our country, in the State 
Department. So thank you very much, and this witness is now 
excused, and we will be in recess for 2 minutes while the next 
panel comes--steps forward. Thank you.
    [Recess.]
    Mr. Rohrbacher. We have permission from the ranking member 
to proceed. He is out making a phone call and will be back 
momentarily, but he gave his permission to proceed with the 
hearing, and the witnesses have already been introduced, and so 
I would just ask if you could keep your testimony to about 5 
minutes apiece, and let me note that we had planned to have one 
more--we plan to have sort of a positive witness--two positive 
witnesses and two critical witnesses, and that didn't work out.
    The two positive witnesses that we had in fact cancelled 
precipitously on us, and that type of foolish behavior, people 
end up hurting their own cause when they do stuff like that, 
and, unfortunately, we tried our best. We have now at least got 
somewhat of a balanced panel because that is what we want--that 
is what you want to have. In my committee meetings we always 
struggle to get both sides and every argument on both sides 
presented, and that is the way I think you make decisions and 
are able to get to the truth, and that is what this is all 
about.
    So we will start with Mr. Volker and just work our way down 
the line. 5 minutes apiece, and then we will go into the last 
round of questions.

STATEMENT OF THE HONORABLE KURT VOLKER, EXECUTIVE DIRECTOR, THE 
 MCCAIN INSTITUTE FOR INTERNATIONAL LEADERSHIP, ARIZONA STATE 
                           UNIVERSITY

    Mr. Volker. Great. Thank you, Mr. Chairman, and thank you 
members of the committee for having me.
    I have worked with Hungary in one way or another for about 
27 years. I started studying Hungarian in 1988. I remember the 
first phrase my teacher taught me was [speaking foreign 
language.] Which is: Don't be mad at me because I am late.
    I served in Hungary at the U.S. Embassy in the mid-1990s 
when we moved the U.S. Army from Germany to Bosnia and had to 
set up U.S. bases in Hungary. I worked very closely with Major 
General Jim Wright, who was the commander of the 21st TAACOM. 
He was a Texan, and I remember him saying as he left Hungary 
after all of this that, ``I am proud to be an American. I am 
proud to be a soldier. If I weren't an American soldier, I 
would want to be a Hungarian.'' And that is the kind spirit 
that I see between our countries and between our values and 
what I believe we should represent together as an alliance.
    I want to make three basic points. One about the context 
that we are working in; two, about Hungary itself; and, three, 
about U.S. policy.
    Context is important. Russia is on the move, as you asked. 
Putin is imposing authoritarianism at home. He has invaded 
Georgia, he has invaded Ukraine. He has annexed Crimea. He is 
putting a lot of pressure on countries in the neighborhood, 
including through energy policy. We have a very weak EU at the 
moment. Europe is more divided today than at any time since it 
was forcibly divided by the Iron Curtain. It is divided east/
west over things like Russia and Ukraine. It is divided north/
south over things like immigration and the Eurozone. We have an 
EU that is looking inward. We have the United States that is 
much less engaged in Europe today than it was in the past. And 
when you travel in Europe these days, that is all you hear. 
Whether it is in the Baltics, in Germany, in Poland, in France, 
in Southern Europe and Central Europe, they are looking for 
more U.S. leadership and they don't see it.
    That is the context in which forces rise up that we don't 
want to see. And we see this across all of Europe, not just 
Hungary. We see parties on the far right gaining in strength 
like the National Front in France. We see the Alliance for 
Deutschland in Germany. We see Jobbik in Hungary. We see a pro-
Russian Czech President. We see a Slovak Prime Minister who in 
the past has been very oriented toward Russia. We see the 
nationalist parties in the Balkans digging in on their 
positions. We are seeing a Europe where the forces that we 
would like to see not be strong actually get strengthened in 
the face of a weak Europe and a retreating United States and a 
tough Russia. And of course Russia throws a lot of money around 
to try to influence these developments, paying for political 
parties, bribing politicians, taking advantage of corruption, 
corrupt business deals, mafia, intelligence services, foreign 
language propaganda, the whole works. So that is what we see in 
context here.
    Within that, then, so, okay so what about Hungary? Hungary 
is, as has been pointed out here, a democracy, a market 
economy, an ally, a member of the European Union, and we have 
seen since 1989 a lot of development in Hungary over time. And 
if you visit there, you will see it is a great place.
    There are things--and I should say I have known the Prime 
Minister, members of cabinet for 20 years. I have known the 
opposition leaders, current and former. I have got lots of 
friends there. Some who are very opposed to the government, 
some who are very supportive of the government. It is a place 
full of great people, smart people, people with strong opinions 
who disagree. People say if you put two Hungarians in a room 
you get three opinions at least. And that is the nature of 
Hungary. That makes it a robust democracy with a lot of 
disagreement.
    Now, I look at many of the policies that the Prime Minister 
has undertaken in the course of his time as Prime Minister. I 
disagree with some of them, as anyone would. I have variously 
in private conversations described them as arrogant, 
capricious, self-centered or bone headed. But that doesn't mean 
he is tearing up democracy. It means he is a politician, and he 
is doing what he believes is right, and he has the votes in the 
country to sustain that. He is a very effective politician, 
very aggressive--I view him much more like a Chicago politician 
with a country instead of a city than a dictator or someone who 
is imposing something on the whole society.
    Now, that being said, there are important issues in 
Hungary, and I think that they all deserve discussion and 
debate. But I think that they get discussion and debate inside 
Hungary from the different political parties, from opposition 
media, opposition television, opposition newspapers, friends of 
mine there--it is a very robust debate. There are protests 
outside the Prime Minister's house. That is okay. And that is 
how I think of it. So I don't think we should be accusing him 
of tearing up a democracy. I think we should have a partnership 
where we are trying to work on big challenges together. If we 
have points of view, we can certainly express them, but we have 
got to do it in a respectful way where we are not telling them 
how to run their domestic politics just as we would not accept 
if they were telling us how to run our domestic politics.
    The third point, then, is about U.S. policy. On U.S. 
policy, I think the key thing is to focus on is what do we 
want, and how do we get it? What we want is to stop Putin from 
disrupting Europe, imposing authoritarianism at home, invading 
neighboring countries, tearing up Ukraine. We want to stop 
that. We want to stop Islamist extremism like ISIS, and we want 
our allies helping to do that. And we want our community, our 
Transatlantic community to be democratic and market economic, 
with good rule of law, good respect for human rights, and 
secure so that we don't have to worry about it for the future 
and future generations. That is what we want.
    I think the way in which we have singled out Hungary and 
gone after areas where we do have some disagreements has 
actually caused more anti-Americanism inside Hungary. It has 
led the government to feel that it can't necessarily work with 
us as closely as it could because of domestic perceptions. It 
has driven them to want to get back at us in some ways. And so 
it is just not a constructive way to get what we actually want.
    Now, we may have these disagreements, but we really got to 
think as a matter of U.S. policy how do we do that. I think 
that in the last 6 months or so I have seen some improvement in 
this. I think we have been working a little bit better with 
Hungary. I respect our new Ambassador from Hungary as well as 
our new U.S. Ambassador there. I think they have made an 
improvement, and I think that if we are working together as 
allies based on shared values with common perceptions about 
what is going on around us, we will be able to forge a very 
strong partnership with Hungary.
    Thank you.
    Mr. Rohrbacher. Thank you very much.
    [Mr. Volker did not submit a prepared statement.]
    Mr. Rohrbacher. Mr. Stahnke.

   STATEMENT OF MR. TAD STAHNKE, VICE PRESIDENT, RESEARCH & 
                  ANALYSIS, HUMAN RIGHTS FIRST

    Mr. Stahnke. Stahnke, yes, sir. Thank you. Like Eddie 
Stanky the baseball player.
    Thanks for holding this hearing. It is very important, the 
future of U.S./Hungary relations. Hungary is an important 
country. It is an important ally to the United States, and it 
should be a concern, we believe, to the United States when an 
ally is taking steps that call into question commitment to 
democratic governance and the rule of law. And so I appreciate 
the opportunity to be here.
    I will say a few words about Hungary and then say a few 
words about recommendations.
    And since 2010 the government of Prime Minister Orban and 
his Fidesz party has made sweeping changes to Hungarian 
constitutional and legal systems. And a number of these changes 
have eroded the rule of law, human rights protections, and 
checks and balances. This is not a human rights first unique 
interpretation of what is going on. We have looked at it. 
Hungarian human rights groups have looked at this. Hungarian 
human rights groups that have criticized governments from the 
fall of Communism. So not groups that have a special problem 
with this government, but groups that are--who are looking at 
holding the Hungarian government accountable to its 
international obligations, they have. Freedom House. The 
European Commission. The European Parliament. The Fundamental 
Rights Agency of the European Union. The Council of Europe. The 
Organization of Security and Cooperation in Europe. All of 
these bodies have expressed concerns. And our own government 
has begun to express those concerns, as been mentioned. 
President Obama raised concerns about the treatment of civil 
society, and I will come back to that in a moment.
    Also at the 10th anniversary of the OSCE Berlin Conference 
on anti-Semitism Samantha Power expressed concerns about the 
situation for anti-Semitism and related problems in Hungary. 
And, finally, Prime Minister Orban himself, who famously in the 
summer called on Hungarians to help build a non-liberal state. 
And that is not, you know, liberal in the U.S. political terms. 
He is talking about an illiberal democracy and looking toward 
Russia and China and Turkey as models. And that should be 
concerning, I think, to the United States for the reasons that 
we have mentioned. And that Mr. Orban's actions in some 
respects are not inconsistent with his words.
    So a few points about that. The harassment continues of 
nongovernment organizations receiving foreign funding. This is 
a--and we can talk more about it if you like in questions, but, 
you know, Orban himself has singled out civil society 
organizations for particular criticism, calling them paid 
political activists who are trying to help foreign interests. 
And then the government launches an investigation, the details 
of which--the basis of which is still not entirely clear, and 
then police and special forces raid offices. They come with 
search warrants, and they search not only the office which is 
written on the warrants, but they demand to go to the 
organization head's home to search their home, which is not 
written on the warrant, but the woman is told that this is, you 
know, the new way that we are going to--we are allowed to 
implement our warrants in that way. So there are issues here.
    And it was mentioned that the--a court, yes, reversed and 
said that these raids were not done in accordance with law, but 
there is still a cloud hanging over these organizations and 
still their tax ID numbers are being held--are being 
challenged, which would force them to shut them down. And it is 
not for the whatever underlying financial irregularities there 
might have been, but for a noncompliance--alleged noncompliance 
with the investigations, and it seems as though the groups have 
been compliant.
    And needless to say, restricting NGOs because of their 
foreign funding only, which I am not saying necessarily has 
been adjudicated in this case, would be a violation of 
international standards and something of concern.
    Also in the area of religion/state relations, the 
government has yet to change a 2011 law which deregistered 
hundreds of previously registered churches and required them to 
reapply under a politicized procedure, not my words. It is the 
European Court of Human Rights words, which required a two-
thirds vote in the Parliament rather than a decision in the 
courts. They took the decision whether or not to recognize 
religious institutions from a court and gave it to the 
Parliament.
    Mr. Rohrbacher. Could I ask you to repeat that last point 
that you just made. I was trying--did it something--what did 
they do with the churches and----
    Mr. Stahnke. Sure.
    Mr. Rohrbacher. If you could just--I have trouble----
    Mr. Stahnke. Yeah. So in 2011, the government passed a law 
that changed how they were going to recognize religious 
organizations for the purposes of granting them privileges. 
Like many European countries, they have a system of recognizing 
religious institutions in order to allow them to get state 
subsidies or allow them to get tax--from the--you know----
    So they changed it. There was--it was an administrative 
procedure that was governed by a court. They changed it to a 
administrative procedure that then would be ratified by the 
Parliament. Right? As though Congress was going to be the ones 
actually recognizing religious institutions or not, and they 
forced all of the recognized institutions to go through this 
new process. Hundreds of them.
    This was challenged. It was brought to the European court 
of Human Rights. The European court said that this was a 
politicized procedure that violated the rights. These were 
groups who did not--who were recognized and were no longer 
recognized. It violated their right to freedom of association 
and freedom of religion. The government under that judgment is 
bound to revise its procedure. It has not yet done so. There 
are religious organizations who still remain unrecognized.
    My third point has to do with anti-Semitism, nationalism, 
and political extremism. Elie Wiesel in 2012 returned an award 
to the Hungarian government expressing the following concern: 
Hungarian authorities are encouraging the whitewashing of 
tragic and criminal episodes in Hungary's past. That is the 
governmentstates' involvement in the deportation of Jews.
    Since that time, the current government has pursued 
controversial historical projects in Hungary, including a new 
museum, a controversial monument that 30 Members of Congress 
asked him not to go forward with without consultations with the 
Hungarian Jewish community. Two days after the government--
Obama was reelected, they started building the monument amid 
protests.
    Mr. Rohrbacher. And it was a monument to again? Do you want 
to repeat that.
    Mr. Stahnke. It was a monument to the so-called victims of 
a German occupation of Hungary, and it portrayed a weak 
compliant Hungary being attacked by an aggressive German eagle. 
And the complaints of the Jewish community was that--and others 
was that it did not adequately recognize those victims, and it 
caused some segment of the community to withdraw its support 
for the government's 70th anniversary commemorations of the 
Holocaust. And I want to be clear. President Orban has said 
there is zero toleration for anti-Semitism in Hungary. He said 
it recently. It is very important, very welcome, that he said 
it. Senior government officials have also recently said that 
the Holocaust was a disaster for all Hungarians. Very welcome. 
And, nevertheless, concerns remain.
    There is a 2013 poll by the Europe Union Fundamental Rights 
Agency that said 50 percent of Hungarian Jews were concerned.
    Mr. Rohrbacher. You know, excuse me. You are only supposed 
to have 5 minutes. You got about 6 or 7, and you are going on 
10 now.
    Mr. Stahnke. I am sorry. If I can just make a couple points 
about recommendations, sir.
    Mr. Rohrbacher. Be very quick because otherwise there will 
be no time for questions.
    Mr. Poe. Votes are----
    Mr. Stahnke. Yes. And I think that some combination of 
smart diplomatic pressure supporting embattled civil society 
and independent journalism, holding Orban to a zero tolerance 
pledge on anti-Semitism, and launching a better effort--U.S. 
Government launching a better effort to demonstrate the 
benefits to the Hungarian people of close ties to the United 
States and a democratic Europe is very important. And, finally, 
I think as we have been talking about, Congress should look 
more closely at Russian influence throughout the region and the 
pernicious effect that that has had on human rights and many 
other--many other things so we can get a better handle on that.
    Thank you very much.
    Mr. Rohrbacher. Thank you very much.
    [The prepared statement of Mr. Stahnke follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                    ----------                              

    Mr. Rohrbacher. And for our lasts witness, Mr. Simonyi.

 STATEMENT OF ANDRAS SIMONYI, PH.D., MANAGING DIRECTOR OF THE 
    CENTER FOR TRANSATLANTIC RELATIONS, SCHOOL OF ADVANCED 
    INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY (FORMER 
           HUNGARIAN AMBASSADOR TO THE UNITED STATES)

    Ambassador Simonyi. Thank you very much. I don't know which 
category I am supposed to fall into, but you will tell me after 
I have spoken.
    Mr. Rohrbacher. As long as you are absolutely truthful, it 
is okay.
    Ambassador Simonyi. Okay. Good. Well, Mr. Chairman, members 
of the committee, Iwould like to say I am a Hungarian patriot 
who--I have spent half my lifetime working on building and 
strengthening the ties between our two countries, and I am 
determined to do that. So when I come here in front of you, and 
I will be critical, it is because I see this as an important 
part of what this relationship is supposed to be about.
    I see today's hearing as a desire by the United States 
Congress to send a strong message that it cares about Hungary, 
its people, and the state of its democracy. My friend and 
mentor, former chairman Congressman Tom Lantos would have 
approved. However, he would have--he would not be happy about 
the worries which have been prompted by this meeting, or the 
worries which prompted this meeting. But I would also like to 
tell you that I was so proud to serve my country under 
President George W. Bush, and I worked very closely with the 
President and with members of his--members of his 
administration, and I would also like to say that I am a 
certified honorary Texan.
    In 2014, for the first time since the fall of the Iron 
Curtain, Hungary was labeled as a defective democracy by the 
respectable Berkland Foundation. In the country report we just 
heard the dismantling of democratic institutions. This is 
worrying. In my written testimony, which I ask you to attach to 
the report, I deal in detail with the 52.7 percent win of votes 
achieved by Prime Minister Orban's party in 2010, which 
resulted in a two-thirds super majority in Parliament, a feat 
repeated in 2014 when only 44.5 percent was enough to achieve 
the same results.
    In my books, in democracy a super majority should not be 
interpreted as a license to do whatever you want even if it is 
legal to do so. As a result, there is no other democratic 
country in the Europe Union where power is a not concentrated 
as much as it is in Hungary today.
    In the wake of the 2012 new Constitution, and approved by 
Fidesz, the ruling party, which has since been repeatedly 
amended in its image by the same super majority, control over 
governmental power, checks and balances have been weakened.
    Unfortunately, a number of legal initiatives struck down by 
the constitutional courts as unconstitutional were immediately 
and hastily incorporated into the Constitution.
    The government has, thus, restricted the competence of the 
constitutional court to examine the constitutionality of 
financial, budgetary, and tax laws. In the Prime Minister's own 
words, the concept of checks and balances ``is a U.S. invention 
that for some reasons or intellectual mediocrity Europe has 
decided to adopt and use in European politics.''
    I beg to disagree. In my view, this is a universal 
principle of democracy. The Prime Minister believes in a strong 
all-powerful state that has the right to interfere in the 
function of the markets, determine the curricula in every 
single public school in the country, and create a hierarchy 
among religious groups. This restricts competition and freedom 
of choice.
    Mr. Chairman, the overwhelming majority of Hungarians are 
not extremists. I am, therefore, worried about the way the 
prime minister has adopted some extremist rhetoric in recent 
months. His comments that are outright anti-immigrant, 
centerphobic, overtly homophobic, are dangerous in a country 
that has still not fully recovered from the terrible human and 
intellectual losses it has suffered exactly because of 
exclusion and hate under authoritarian regimes of the past.
    Mr. Chairman, the Prime Minister has dramatically modified 
his previously unqualified pro-Western stance in the last 
years. He has most recently suggested that autocratic regimes 
are more efficient than democracies, which in his view tend to 
get lost in debates.
    Hungary is unfortunately too dependent on Russian energy 
supplies, some 80 to 90 percent, which has its dangers. This 
government has done little to abate the situation. It is in the 
interest of Hungary the Russian pressure is resisted and that 
agreements are fully transparent, avoiding the slightest hint 
of graft or political interference by Mr. Putin short and long 
term.
    And here I would like to tell you that in my day job I 
spend about 85 percent of my time trying to get the United 
States to get LNG gas to Europe. Specifically, most 
importantly, to Central and Eastern Europe.
    The relationship between Hungary and the United States is 
that of allies, based on mutual respect and friendship which 
carries obligations and responsibilities. The government's 
recent decision to support the war against ISIS on the ground 
must be lauded. It was abysmal petty politicking by some 
members of the opposition not to support the government's 
decision. Meeting our security obligations, however, cannot 
only be a tool to disarm U.S. criticism. Our Transatlantic 
alliance is about a lot more. U.S. diplomacy is right to 
continue to call on the government to meet its obligations of 
shared values and democracy.
    Finally, Mr. Chairman, why waste precious time of talented 
Ambassadors. And here I must say that Hungary has chosen one of 
the most talented Ambassadors to serve in it Washington. Why 
waste the precious time of talented Ambassadors and diplomats 
in Washington on trying to explain away decisions of the 
government, statements by its Prime Minister, a confusing 
foreign policy instead of focusing on new forward-looking 
opportunities for investments and trade innovation, business, 
and science across the board. Why waste taxpayers' money on K 
Street lobbyists? I know from experience that there is an 
easier, more efficient, and cheaper way. Revert back to the 
fundamental values of democracy of consensus, of inclusion at 
home, and clarity in foreign policy abroad.
    Mr. Chairman, finally I really want to take this 
opportunity to thank you and the members of the subcommittee 
for your interest, but also all the American friends of Hungary 
for their unwavering support for the democratic future of my 
country. Thank you.
    Mr. Rohrbacher. And thank all of you, the witnesses, for 
laying a good foundation for a discussion.
    [The prepared statement of Mr. Simonyi follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Mr. Rohrbacher. You know, first of all, just about a couple 
of points you made, and then I have got some questions for the 
other panelists as well.
    So a government without checks and balances like the United 
States is itself more authoritarian. Is that right? Is that 
what you are saying? So the parliamentarian system in England, 
which has no checks and balances, is authoritarian.
    Ambassador Simonyi. Checks and balances is about the 
institutional guarantees that a one party, whether it is a 
majority or a minority, does not have an overwhelming 
concentrated power.
    Mr. Rohrbacher. So you are against the British system and 
all the other democracies----
    Ambassador Simonyi. I am not against the British system.
    Mr. Rohrbacher. Well, but let me say what you just 
described, to be very fair about it, when you have a 
parliamentary system, which the United States doesn't have, but 
many other countries do, if you have a consensus among the 
population that something has to be done, they end up electing 
a Parliament which concentrates power, and in these countries, 
basically, like Great Britain, they do not have the checks and 
balances that we have in making sure that you have three layers 
of government, et cetera, et cetera. And our Founding Fathers 
had a different thing in mind.
    I will have to say that your testimony in that end is not 
impressive that they--that that makes him in some way an 
authoritarian because he redid the Constitution to make sure 
what? Quite often what happens when they follow the American 
example, you get governments that don't work because they are 
not Americans. And it doesn't work in what we have heard in our 
testimony today is that since Orbanhas come in, we have had a 
major success in their economy. The country, more than anything 
else, is strengthening and able to help us in Afghanistan and 
elsewhere and have a higher level of growth. Maybe that is 
because they decided to go with democracy in a different way 
than our checks and balances.
    You may answer that.
    Ambassador Simonyi. Mr. Chairman, let me just add, I do not 
believe in illiberal democracy. And illiberal in this sense 
does not mean illiberal in the American sense. It means Western 
style. I believe in Western style democracy. I do not believe 
in Russian or Asari-style democracy, and I am very much 
disturbed that my country has started----
    Mr. Rohrbacher. We are not talking about Russian----
    Ambassador Simonyi [continuing]. Started in that direction.
    Mr. Rohrbacher. Okay. So how is the parliamentary system 
that has been set up by Orban different than Great Britain's 
Government?
    Ambassador Simonyi. Sir, I think what you have to 
understand is that this super majority has also resulted in 
limiting the possibilities for other parties to compete on a 
level playing field. I do not believe that the last election, 
which, as I said, 44 percent was enough to produce a two-thirds 
majority, that the parties were competing on a level playing 
field.
    Mr. Rohrbacher. Okay. I would just have to say that the 
idea that there is going to be no gerrymandering, we have had 
gerrymandering in our country for a long time, we are not an 
authoritarian country. Although we don't like it, we don't 
think it is a good thing, but I can tell you in California we 
have 15 Members of Congress now who are Republicans. When I 
came here, there were 25 and somebody redistricted it in a 
way--but I have never claimed that our government in California 
was not a democratic government.
    Let me just go back to some of the super majority which you 
mentioned here, and I will actually at this point go to Judge 
Poe, and maybe ask few more questions at the end, but go right 
ahead.
    Mr. Poe. Thank the chairman. Thank you all for being here.
    I just want to follow up on my previous comments that my 
concern is that the United States is trying to get another 
country, an ally, a friend, close friend, to have democracy in 
our image. That is really the concern that I have and that 
Hungarian bashing by our government seems to reflect that. I 
certainly don't agree with a lot of things that are taking 
place in Hungary or the United States or anyplace. I can find--
as somebody said, I can find a problem in every solution, and I 
can. In every country I can give you a list of those.
    But, Mr. Volker, I will first turn to you, and we will see 
how far we can go down the line.
    Do you see, based on your knowledge of the Hungarians, this 
attitude of the United States about these issues toward 
Hungary, has that made the United States closer friends, 
buddies, workers, or have we pushed the Hungarian people and 
the government away based upon these actions that we have been 
taking?
    Mr. Volker. I have had conversations with cabinet members 
in Hungary who has said that it has pushed away, that they feel 
more distant. I have had conversations with private citizens 
who support the government who feel upset at the United States. 
And I have had conversations with opposition figures and 
private citizens who oppose the government who are grateful for 
the United States for intervening.
    So it is exactly as you would think in intervening and 
domestic politics. Depending on where you sit is where you 
stand.
    Mr. Poe. And that is my point exactly. Is the United States 
interfering in domestic politics?
    Mr. Volker. I think that the fundamental issue here is 
exactly that. That we are getting drawn into differences over 
policy as opposed to differences of whether a democracy is 
functioning.
    I think we have a reason as the United States, as a great 
democracy in the world, to speak up when we see things--
democracies really under threat. But if is really policy 
differences and choices that a country is making in its own 
internal politics, I think we have to hang back.
    Mr. Poe. And with the bigger--I am just going to try to go 
down the row on all these questions.
    Would the bigger issue be that we ought to be concerned 
about foreign relations, foreign problems, like the Russians, 
for example. They are the big elephant in the neighborhood.
    I was in Hungary over the weekend as a member of the U.S. 
NATO Parliamentary Assembly, and they spent a lot of time 
talking about the Russians. They are worried about the 
Russians. Shouldn't we be more forthright as the United States? 
We are going to help you with your concerns about the Russians, 
like sending them natural gas as soon as we can. I mean, are we 
missing something in our relationship----
    Mr. Volker. No. I think that is exactly it, that Hungary, 
as we have established, is a democracy. It is an EU country. 
And, most importantly, it is an American ally. And we have real 
problems with Russia. We have problems in the Ukraine, we have 
problems with ISIS, and we should be gathering, working with, 
and leading our allies, and we should be tackling these 
challenges.
    Mr. Poe. Not to justify any of the criticism or to support 
any of the things that have been critical, I am not saying 
anything of those things are right or wrong, it just seemed to 
me that we ought to be dealing with a foreign country on 
foreign relations as opposed to telling them what to do in a 
domestic situation. We certainly wouldn't like it if they tried 
to tell us what to do.
    Mr. Volker. Yeah. I think if--sir, I think if it crosses a 
real line where it is--you know, it is no longer a democracy, 
it is a dictatorship, then we would have a reason, but we are 
not there.
    Mr. Poe. All right. And just a question or two that--
Hungary is operating under a new Constitution. Why did they get 
rid of the old Constitution?
    Mr. Volker. Because the old Constitution was seen by the 
government as a compromise with the Communists in 1988 and 
1989, and they felt that that compromise led to a document that 
could only be changed when you had a two-thirds majority, and 
it favored over a course of a long period of time socialists in 
the administrative structures, in the party financing, and the 
judiciary, and all these things.
    So the current government believes that their only chance 
to amend that Constitution that emerged from the Communist 
period was to put through these sweeping amendments.
    Mr. Poe. And it was intended to be a temporary Constitution 
anyway. Wasn't it?
    Mr. Volker. It was stated at the time it was meant to be a 
temporary Constitution.
    Mr. Poe. Communism light, as I call it.
    Mr. Volker. Right. And you can argue the merits of what was 
put in its place, but it was a policy judgment by the 
government that got elected with two-thirds, for the first 
time, enabling themselves to make those changes.
    Mr. Poe. All right. Thank you very much. I will yield back.
    Mr. Rohrabacher. And Mr. Weber.
    Mr. Weber. Mr. Stahnke, you mentioned you were concerned 
about our allies' style of doing away with democratic 
governance, rule of law, and since 2010, you said there have 
been sweeping changes, and of course, you just heard that 
exchange about the change in the Constitution.
    You said you were concerned about Hungary becoming in 
illiberal state like Russia and China, and then you mention 
Orban had bashed some paid political activists helping with 
foreign interests. You recall make those comments?
    Mr. Stahnke. Not exactly the way you describe them, sir, 
but I do make those comments, yes.
    Mr. Weber. Orban didn't make those comments. Would you say 
that that is akin to a Senate majority leader coming over on 
the floor of the Senate here in the United States of America 
and bashing the Koch Brothers, or lying about a Presidential 
candidate not paying income taxes for the last 10 years and 
then refusing on national media to say that was wrong? So would 
you say that politicians often make negative comments about 
those that oppose them?
    Mr. Stahnke. So----
    Mr. Weber. That is yes or no.
    Mr. Stahnke. Yes.
    Mr. Weber. Okay.
    Mr. Stahnke. However, if I may, I think it has gone beyond 
that.
    Mr. Weber. Okay. Well----
    Mr. Stahnke. I mean, he can make these comments, and then 
the government has taken steps----
    Mr. Weber. That's--but I don't want to contend with you 
because I have got a very limited time. They are going to call 
votes----
    Mr. Rohrabacher. It is yours.
    Mr. Weber [continuing]. Any second. That is right.
    So then you said they took steps to shut down tax ID. Is 
that different, in your view, than the IRS over here not even 
allowing tax IDs for conservative groups? Is that somehow 
worse--or worse in your opinion?
    Mr. Stahnke. Shutting off tax IDs because the groups 
receive foreign funding which----
    Mr. Weber. But you agree that happens over here as well, 
and when they do even allow the tax IDs, right, would there 
have been a difference in political opinion?
    Mr. Stahnke. Sir, I am not aware that--I think groups in 
the U.S. can receive foreign funding.
    Mr. Weber. But you are aware that the IRS over here has 
denied tax IDs to conservative organizations.
    Mr. Stahnke. Sir, I am not expert on what----
    Mr. Weber. You are aware or unaware? Let me move on. And 
how about the 2010 national healthcare law that is--that is 
absolutely making companies, individuals make health abortion 
choices, if you will, or reproductive health choices that are 
against their religious objections. So if you have a group over 
here that is passing laws that says you are going to do this 
against your religious, your conscientious objection, is that 
somehow different than what a majority over there might do 
under Orban?
    Mr. Stahnke. Yes, sir.
    Mr. Weber. It is different?
    Mr. Stahnke. It is different.
    Mr. Weber. How?
    Mr. Stahnke. Because of some of the changes that have been 
put in the Constitution.
    Mr. Weber. Okay.
    Mr. Stahnke. But we got a Supreme Court that will 
eventually----
    Mr. Weber. And they can overcome some of that, especially 
in the Green case.
    Mr. Stahnke. And they--excuse me, please.
    Mr. Weber. Excuse me. I am running out of time. Then you 
said that as long as it was ratified by Parliament, and the 
chairman addressed that, that one particular comment because--
to Dr. Simonyi.I think you are against the English form of 
government with the Parliament. Just because it is ratified by 
the Parliament, is that somehow worse than being ratified by 
the United States Congress in 2010 and then unilaterally 
changed by the executive branch some 30-something times? I 
think all this talk about Orban being such a devilish 
character, I mean, you can see some semblances over here. I 
mean, I am just--I am looking--trying to look at it in the 
30,000-foot view.
    Mr. Stahnke. I understand. I would just disagree, sir.
    Mr. Weber. Okay. Now, you also said there was a 
whitewashing of historical events against the Jews.
    Mr. Stahnke. I don't believe I said that, sir.
    Mr. Weber. Three examples.
    Mr. Stahnke. Yes, I quote Elie Wiesel when I said that.
    Mr. Weber. Okay. Can you give us three examples of what he 
is talking about?
    Mr. Stahnke. Yes. Southern monument was one.
    Mr. Weber. All right.
    Mr. Stahnke. There is a controversy on a museum. Hungary 
has a perfectly good Holocaust Memorial and museum in their 
capital, to their credit, right.
    Mr. Weber. Okay.
    Mr. Stahnke. But the government wanted to open--wants to 
open an additional museum----
    Mr. Weber. All right. So you have got----
    Mr. Stahnke [continuing]. To the victims of the occupation.
    Mr. Weber. Three examples. So would you--would you agree 
with me that when a country starts to exhibit anti-Semitismor 
snubbing of any other country for that matter, but let's say 
Israel in this case, it is a bad thing and sometimes it even 
begins with snubbing of their leaders. I mean, witness what 
happened with Benjamin Netanyahu coming over here and couldn't 
be received at the highest level because he wasn't welcome. So 
could you agree that that is along those same lines?
    Mr. Stahnke. I don't see the connection, sir.
    Mr. Weber. You don't see the connection.
    Mr. Stahnke. No. No.
    Mr. Weber. So it is okay. In other words, if that doesn't 
rise to the level of your concern, that there is no connection. 
If it rises my concern, that doesn't matter.
    Mr. Stahnke. No, I don't think that is what I am saying, 
sir. Maybe I don't understand your question.
    Mr. Weber. Well, I am just saying that that happens in 
multiple countries. It is not just over in Hungary, right?
    Mr. Stahnke. Anti-Semitism is a feature of many countries; 
that is correct.
    Mr. Weber. Would you categorize the snubbing of Netanyahu 
as anti-Semitism?
    Mr. Stahnke. I don't have a view on that, sir.
    Mr. Weber. You don't have a view. Okay. Just curious.
    Mr. Stahnke. So my--what I am looking at here----
    Mr. Weber. I have got 30 seconds left.
    Mr. Stahnke [continuing]. Is a international commitment, 
sir, and a compliance with international standards, not 
promoting U.S., how the U.S. does a----
    Mr. Weber. Okay. Well, I am sorry, I am out of my time. I 
want to go back to Simonyi. You said no other country in the EU 
had the power concentrated as in Hungary.
    Ambassador Simonyi. True.
    Mr. Weber. Okay. Give me country number 2 and country 
number 3, and who is number----
    Ambassador Simonyi. I wouldn't want to make this 
comparison, but what I would like to say, and which is--which 
dovetails--or is related to a comment that you--the chairman 
made earlier. I remember my conversations with President Bush 
when he would compare--compare and ask me questions about 
Hungary in the same group as Denmark and Sweden and Norway, and 
I am very, very saddened by the fact that now you are asking 
about a totally different group of immature democracies.
    Hungary used to be a very up on the top of the list of most 
advanced democracies in central Europe, and that is really my 
concern. My problem is that we have not made real progress. And 
I would also--I would also like to--like to come back to anti-
Semitism. I do not believe Viktor Orban is anti-Semitic, but I 
do not believe that he has done enough to push back on anti-
Semitism open or covert in my country.
    Mr. Weber. Mr. Chairman, I am going to yield back because I 
know they are calling votes any minute, and you have more 
questions.
    Mr. Rohrabacher. Thank you. We are going to have votes 
pretty soon here. Let me just follow up with a few final 
questions.
    Let me just say, this bandying around the word ``anti-
Semitism'' is a travesty. I think anybody doing that should 
be--I mean, hang your head in shame. You know, anybody who is 
saying--I have listened to what you are talking about. I have 
found no evidence of anti-Semitism in the testimony today. That 
they didn't build a statue that expanded upon the victims of 
Hungary during the Second World War to specifically include 
Jews instead of everyone who suffered, that is not anti-
Semitism, and you should be ashamed of yourself for suggesting 
that it is.
    Mr. Stahnke. Sir, I did not call that anti-Semitism.
    Mr. Rohrabacher. Sir, you may have some very important 
other points to make that are legitimate, and this is your--
your colleague over here has just admitted Orban that has no 
anti-Semitism in him now, and he said he might appealing or 
somebody might be appealing to it. This--this charge that--of 
anti-Semitism, I tell you, of all the things came out today, 
has shown the type of malicious untruths and lies that are 
being told because this is not true from what I have heard 
today.
    We have asked you for evidence, and you have come up with 
things that are nonsensical. The fact is that they have 
museums. They completely are recognized, that the Jews were 
murdered during World War II. They completely understand that. 
There are museums to that end. There are synagogues--are 
through not synagogues operating in Budapest? So with that 
said, I think--I am going to give you--I am going to actually 
give you a chance to answer that, so----
    Mr. Stahnke. Thank you, sir. I appreciate that.
    Mr. Rohrabacher. Number 2, homophobic--it is a good--you 
are the only person who had courage enough to really pinpoint 
where a lot of people are upset with the Orban government, and 
it is that they don't like gay marriage and they don't want 
abortion. They are more traditional Catholics, and they were 
elected by a huge majority so they would pass laws that 
reflected the culture and values of their people.
    And I know that some people can't--you know, their policy 
toward gay marriage should be something they determine by their 
culture, their values, and their parliamentary and democratic 
system, and I don't consider--although I personally have--if 
someone who is up castigating someone saying bad things about 
someone's personal life, I think that is wrong. I personally 
think that is un-Christian, but people have a right to set 
their standards in terms of what they mean by marriage and by 
what they mean by some of their religious--their own religious 
convictions.
    I do not think that requiring two-thirds majority is in 
some way anti-democratic. I think it is pro-democratic to not 
to require two-thirds majority. I would suggest, Mr. Weber, you 
pay attention to the type of things that he is talking about 
that have happened here in the last 6 years, blatantly happened 
here in the last 6 years, and you are claiming that we should 
question that whether Hungary has this democratic government or 
whether their government is dedicated to democracy, when they 
are doing worse things here than what you have charged with.
    And I mean, we have had out--people in our political party 
targeted by the administration by the IRS. We have seen friends 
of ours like Curt Weldon have his home invaded by the FBI, and 
then he lost his election by a few hundred votes. We see these 
things here. They are not right, but it doesn't make us a non-
democratic country. It means we got to start working together 
and perfect it and not have tolerance for basically the type of 
abuse that you are talking about.
    So--and that we are talking about. So let me just finish it 
up, and I will give each one of you 1 minute to summarize and 
to actually disagree with me or cut me down or whatever you 
have to say is fine, but let me just say that I think that what 
has come out of here, this hearing today, is there is a double 
standard, a heavy double standard going on here treating 
Hungary differently. And I think that it flows directly from 
these values, these traditional values that their government 
has--has embraced, and I think it is wrong, and we--they are 
not perfect. They are certainly not perfect, but I haven't seen 
hardly any evidence to suggest that charges made against the 
Orban government are real, but are, instead, are based on 
politically motivated attacks based on double standard.
    With that say, we will go 1 minute apiece.
    Mr. Volker. Great. Mr. Chairman, members, thank you very 
much. I could go around the alliance and find in every single 
allied country policies I disagree with. I could find practices 
I disagree with. I could find evidence of corruption. I could 
find all sorts of things. I don't think that is what I would 
like to do with our allies. I would like to work with them, try 
to improve what we can, and deal with our common external 
challenges
    Mr. Rohrabacher. Okay. Mr. Volker, thank you, and one last 
little point here, and that is, anti-immigrant. I don't know 
the details. We didn't get into that here, but you are sitting 
with three Members of Congress who are very upset that we have 
millions of illegals in this country and do not want to give 
them amnesty. We do not want to encourage more people to come 
here illegally.
    We have heard so many times--we have been called racist so 
many times just for that, for watching out for the interests of 
the American people in terms of who is going to come into our 
country. I don't know if that is the same thing, and I am going 
to give you 2 minutes to include that answer. Go right ahead.
    Mr. Stahnke. First of all, sir, with all due respect, I do 
not bandy about the term anti-Semitism, and my organization 
does not either. For 12 years, Human Rights First, unique among 
international human rights organizations, has had a campaign to 
combat anti-Semitism, particularly in Europe and throughout the 
OSCE countries.
    So I take that very seriously, sir. I said that Prime 
Minister Orban had expressed their tolerance for anti-Semitism 
in his country, and that was a very important statement, and I 
welcome that.
    I did say that he has engaged in policies and actions that 
have promoted a different historical understanding and that 
there are major segments of the Jewish community in Hungary who 
have objected to that, and that is true. And this is--this is 
cause for concern.
    And Jobbik, right, which is extremely anti-Semitic, I think 
we would both agree on that point, is growing in power. And I 
am not suggesting the United States should create a situation 
where it makes it more likely that this extremist anti-Semitic 
racist party comes to power. Quite the opposite. It should be 
promoting a situation where there is more adherence to 
international standards. This--I am not looking at this in 
terms of what the United States, you know, promoting how the 
United States does things.
    One quick example, sir, that constitutional amendments, 
there are five of them, once they put through that 
Constitution, one of them cut down the jurisdiction and removed 
the case law of the constitutional court. I think the 
international community supported, in countries transitioning 
from Communism, rights in their Constitution and a 
constitutional court to protect those rights. This government 
has cut back the jurisdiction of the constitutional court and 
removed--that court had done important things to protect 
people's rights.
    That is an example, sir, of checks and balances. It is not 
about how we do things in the United States. It is about 
universal principles and a chance for the Hungarians to see 
that their rights are protected. Thank you.
    Mr. Rohrabacher. All right. Thank you.
    Ambassador Simonyi. Mr. Chairman, I want to----
    Mr. Rohrabacher. You have the last say of the day.
    Ambassador Simonyi. Thank you. I want to be very clear. 
This is not about gay rights, and I don't want to go into it. 
It is just very important that the leader of the country chose 
tolerance and acceptance to all its citizens, whatever their 
sexual orientation. That is all about. I don't want to--the 
rest is really not important here.
    I want to make another--the next comment is really about I 
do not believe Hungary should be--should be this close to 
Russia, this close to Vladimir Putin. I think it was wrong, and 
I--personally I was saddened by the fact that Hungary was the 
first ally to give Vladimir Putin recently the red carpet 
treatment in Budapest. And I think it was wrong, it was the 
wrong message, and it was kind of breaking, breaking the 
solidarity and the unity of our alliance, and I think that is 
very important.
    And then thirdly, last--lastly, I would--I would say that, 
you know, what I really hope you understood from this 
conversation. I don't--I don't care about the system that the 
Brits have. I really don't care about the system that the 
United States had. You have had a long run of your democracy. 
U.S. Democracy is mature and strong. All I am saying is 
concentration of power, to the extent it is concentrated in 
Hungary today in the hands of one party and one person is 
dangerous when the country is so immature in its democratic 
institutions where the democratic institutions have been weak. 
This is really what I wanted to say.
    And a final word. I have no doubt, Mr. Chairman, that 
Hungary will get through this phase, and I do believe that 
Hungary will figure out a way to stabilize its democracy 
because only a democratic country, only a democratic Hungary 
has a serious and real future.
    Mr. Rohrabacher. Okay. I want to thank all the witnesses. 
There is a vote on right now.
    Mr. Poe. Yes, sir
    Mr. Rohrabacher. Okay. So we are going to have to run out, 
but thank you very much. I turned off the mic. Thank you very 
much. We have a vote on, and let me just say that I deeply 
appreciate all of you. I think it is very good back and forth. 
I sort of enjoyed this. I think that is part of what we are 
supposed to be all about, and I especially, your last 
statement, understand your concerns. That is what you are 
talking. You are saying you are based on concerns, and okay. 
And we are all--we are all rooting for the good guys, which is 
everybody who believes in tolerance and treating people 
decently and having a democratic government. We are all rooting 
for the good guys wherever they are, so thank you all so much 
for testifying today.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]
                                     
                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]        
                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
